                                       Closeout for M99030016
     O a M a r c h 1999, we were contacted by an individual' requesting information about
     concerns about incorrect data gathering and analysis conducted and published by two
      scientist^.^ The individual attributed the errors to inexperience rather than intentional
     inappropriate data manipulation.

     The individual said that the scientists' institution had reviewed the issue and concluded that it
     involved honest errors and that another federal agency3was currently reviewing it. We
     determined that NSF had not provided funding for this research and closed this matter
     without further inquiry.

     Cc: Integrity, IG




 ' The individual was Ms.
 * The scientists were Drs
f-                    thc-within   the Department of   0
